                      DIT\RT\ 11::\T ( >F HI :.\LTII \:\!) Hl "\1 .\:\ SER\ "[(;E'-,


                 OFFICE OF INSPECTOR GENERAL
                                         \\·\ ,l ll'\t , I IJ '\. IH   ~ l f.'HI




                                             · JUN 1 3 2014




TO: 	          Marilyn Tavenner
               Administrator
               Centers for Medicare & Medicaid Services
                      /S/
FROM:          Brian P. Ritchie
               Acting Deputy Inspector General
                for Evaluation and Inspections


SUBJECT: 	 Memorandum Rep011: Medicare Market Shares ofMail Order Diab etes Test
           Strips From July- September 2013 , OEI -04 -13-00680

This report provides information on the types of mail order diabetes test strips associated with
Medicare claims for the 3-month period of July to September 2013. Section 154(d)(3)(B) of the
Medicare Improvements for Patients and Providers Act of2008 (MIPPA) requires the Office of
Inspector General (OIG) to complete a study to determine market shares of diabetes test strips
before each round of competitive bidding following Round 1 of the Competitive Bidding
Program . This report fulfills the MIPP A requirement for the pending third round of competitive
bidding; a 20 I 0 OIG report fulfilled the MIPPA requirement to complete a study determining
market shares of diabetes test strips before 2011.

SUMMARY

Medicare covers diabetes test strips provided by mail order suppliers and local pharmacies or
supplier storefronts. The Medicare Prescription Drug, Improvement, and Modernization Act of
2003 (MMA) requires the Centers for Medicare & Medicaid Services (CMS) to phase in, with
several rounds of bidding, a Competitive Bidding Program for durable medical equipment,
prosthetics, orthotics, and supplies (DMEPOS) . Under this program , suppliers compete to
become Medicare contract suppliers for selected DMEPOS items. The payment amounts
resulting from the competition replace the Medicare fee-schedule amounts for these items.

The Competitive Bidding Program includes diabetes test strips provided by mail order but does
not include diabetes test strips purchased at a local pharmacy or supplier storefront
(i.e. , non-mail order) . Under the program , " mail order" includes diabetes test strip s shipped or
delivered to the beneficiary's home , regardless of the method of delivery .
Page 2 – Marilyn Tavenner


Non-mail order diabetes test strips are those that a beneficiary picks up in person at a local
pharmacy or supplier storefront. The American Taxpayer Relief Act of 2012 (ATRA)
established equal Medicare payment amounts for mail order and non-mail order diabetes test
strips purchased after the implementation of a national competition for mail order diabetes
testing supplies (hereinafter referred to as the National Mail Order Program).1 CMS
implemented the National Mail Order Program on July 1, 2013.

MIPPA prohibits CMS from awarding Competitive Bidding Program contracts for mail order
diabetes test strips to suppliers that do not demonstrate that their bid covers at least 50 percent,
by volume, of all types of diabetes test strips. (This is referred to as the MIPPA 50-percent
requirement.) Further, MIPPA section 154(d)(3)(B) requires OIG to complete a study to
determine market shares of diabetes test strips in the Competitive Bidding Program before each
round of competitive bidding following Round 1.

We determined the Medicare market shares for diabetes test strip types associated with a random
sample of Medicare claims for the 3-month period of July to September 2013. Our sample of
1,210 claims was drawn from a population of approximately 505,000 claims for mail order
diabetes test strips provided to beneficiaries during this period. To estimate the Medicare market
shares, we projected our sample data to the population of mail order diabetes test strips.

We found that 22 suppliers submitted at least 43 types of mail order diabetes test strips for the
3-month period of July to September 2013. Two types of diabetes test strips accounted for
approximately 45 percent of the Medicare mail order market share. Three types of diabetes test
strips accounted for 59 percent of the Medicare mail order market share and 10 types accounted
for 90 percent. CMS may consider these data when determining whether subsequent rounds of
suppliers’ mail order diabetes test strip bids comply with the MIPPA 50-percent requirement.

BACKGROUND

Diabetes is a chronic disease in which a person has a high level of blood sugar (i.e., glucose)
because either the body does not produce enough insulin, or cells do not respond properly to the
insulin that the body does produce.2 Diabetes may be managed through a variety of methods,
including healthy eating, physical activity, and insulin injections.3 If people with diabetes do not
properly manage their glucose levels, medical complications (e.g., hypoglycemia, cardiovascular
disease, or renal disease) may occur.

Diabetes disproportionately affects older adults. Approximately 27 percent of individuals ages
65 and older in the United States report having diabetes, whereas the reported percentage in the
overall population is 8 percent.4 Medicare covers services and testing supplies to help
beneficiaries with diabetes manage the condition.
1
  ATRA, P.L. No. 112-240 § 636 (adding Social Security Act, § 1834(a)(1)(H), 42 U.S.C. § 1395m(a)(1)(H)).

2
  National Institutes of Health (NIH), Diabetes Overview: What is Diabetes? Accessed at 

http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm on October 11, 2013. 

3
  NIH, Diabetes Overview: How is Diabetes Managed? Accessed at 

http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm#managed on October 11, 2013. 

4
  The Centers for Disease Control and Prevention. Diabetes Self Management Overview. Accessed at 

http://www.cdc.gov/diabetes/pubs/pdf/ndfs_2011.pdf on October 3, 2013. 


Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 3 – Marilyn Tavenner


A person with diabetes may use a hand-held meter to test the concentration of glucose in his or
her blood. To do so, the individual inserts a diabetes test strip into the meter. A diabetes test
strip is a small, thin, one-time-use piece of plastic on which a sample of blood is placed after
pricking the skin with a lancet. The meter’s reading of an individual’s glucose level provides the
information required for that person to manage his or her diabetes. People with diabetes may
need to perform glucose tests several times a day to assist them in maintaining appropriate
glucose levels.

To be eligible for Medicare coverage of diabetes test strips and other diabetes supplies, Medicare
beneficiaries with diabetes must be under the treatment of a physician for the condition.5 The
physician must prescribe the frequency of use for diabetes test strips.6 Because some
beneficiaries should test their glucose more frequently than others, the number of boxes of
diabetes test strips per Medicare claim varies.7 Each box contains 50 strips.

Suppliers submit one Medicare claim for a beneficiary’s supply of diabetes test strips for up to
3 months at a time. Each claim indicates the number of boxes provided to the beneficiary for the
applicable time period. Suppliers submit claims using Healthcare Common Procedure Coding
System (HCPCS) codes to receive Medicare reimbursement. Medicare claims for diabetes test
strips are billed using HCPCS code A4253. For diabetes test strips provided by mail order, the
HCPCS code A4253 must use the KL modifier (A4253 KL).8

Medicare beneficiaries may purchase their diabetes test strips via mail order from suppliers in the
Competitive Bidding Program or via non-mail order from local pharmacies or supplier
storefronts. Mail order applies to diabetes test strips shipped or delivered to a beneficiary’s
residence.9 For both mail order and non-mail order, Medicare pays 80 percent of allowed
charges for diabetes test strips and the beneficiary is responsible for the remaining 20 percent.

The Competitive Bidding Program and Diabetes Test Strips
MMA required CMS to phase in, with several rounds of bidding, the Competitive Bidding
Program for selected DMEPOS items, including mail order diabetes test strips.10 The selected
DMEPOS items are generally high-cost and high-volume items that have a high savings potential




5
  Other diabetes testing supplies may include batteries and control solution.

6
  Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530, L27231, L11520, and L196 for

Durable Medical Equipment Medicare Administrative Contractor Jurisdictions A, B, C, and D respectively). 

7
  CMS, MLN Matters Number SE1008: An Overview of Medicare Covered Diabetes Supplies and Services. 

Accessed at http://www.cms.gov/MLNMattersArticles/downloads/SE1008.pdf on October 25, 2013. Medicare 

covers up to 100 testing strips per month (i.e., two 50-count boxes) for insulin-dependent beneficiaries with diabetes

and up to 100 testing strips every 3 months for noninsulin-dependent beneficiaries with diabetes. Medicare allows 

additional testing strips if deemed medically necessary and documented in physician records. Medicare LCDs for 

Glucose Monitors (L11530, L27231, L11520, and L196 for Durable Medical Equipment Medicare Administrative 

Contractor Jurisdictions A, B, C, and D respectively). 

8
  Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, §§ 20.5.4.1 and 50.6. A modifier is a code on a 

Medicare claim that further describes the services performed or supplies provided to a beneficiary.

9
  42 C.F.R. § 414.402 (defining “mail order item”). 

10
   MMA, P.L. No. 108-173 § 302(b)(1) (amending Social Security Act, § 1847, 42 U.S.C. § 1395w-3). 


Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 4 – Marilyn Tavenner


under the Competitive Bidding Program.11 CMS uses bids submitted by DMEPOS suppliers to
determine the payment amounts under the program. Bids are evaluated based on suppliers’
eligibility, their financial stability, and the bid price.12 Contracts are awarded to the suppliers
that generally offer lower prices and meet applicable quality and financial standards.13

MIPPA also requires mail order suppliers to demonstrate in their bids that they provide at least
50 percent, by volume, of all types of diabetes test strips.14 This 50-percent requirement is
intended to ensure that most beneficiaries can receive their preferred type of diabetes test strips.
Further, the MIPPA section 154(d)(3)(B) requires the OIG to complete a study to determine
market shares of mail order diabetes test strips in the Competitive Bidding Program before each
round of bidding following Round 1.15

Round 1 of the Competitive Bidding Program. Before 2011, Medicare reimbursed all diabetes
test strips suppliers on the basis of fee-schedule amounts, which were updated annually and
varied by State. In January 2011, CMS implemented Round 1 of its Competitive Bidding
Program for selected DMEPOS in nine Competitive Bidding Areas (CBAs).16 Competitive
bidding payment amounts replaced the fee schedule amounts for mail order diabetes test strips in




11
   CMS, General Overview of the Final Rule for Competitive Acquisition for Certain Durable Medical Equipment,
Prosthetics, Orthotics, and Supplies. Accessed at https://www.cms.gov/DMEPOSCompetitiveBid/Downloads/
DMEPOSRegSumm.pdf on October 4, 2013; 73 Fed. Reg. 17992, 18010 (Apr. 10, 2007).
12
   Palmetto GBA, Overview of the DMEPOS Competitive Bidding Program. Accessed at
http://www.dmecompetitivebid.com/palmetto/cbic.nsf/vMasterDID/79NTSG0132 on October 16, 2013.
13
   Palmetto GBA, How a Bid is Evaluated. Accessed at http://www.dmecompetitivebid.com/Palmetto/cbicrd2.nsf/
files/Webcast_Transcript_Bid_Evaluation.pdf/$File/Webcast_Transcript_Bid_Evaluation.pdf on February 24, 2014;
CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, § 40.1. The payment amount for an item
furnished under the competitive bidding program is equal to the median of the bids submitted by qualified suppliers
whose composite bids are equal to or below the “pivotal bid” for that product category. 42 CFR § 414.416(b). The
pivotal bid is the lowest composite bid based on bids submitted by suppliers that includes a sufficient number of
suppliers to meet beneficiary demand for the items in a product category. 42 CFR § 414.402.
14
   Specifically, MIPPA stipulates that suppliers provide at least “50 percent (or such higher percentage as the
Secretary may specify)” of all diabetes test strips “in the aggregate and taking into account volume for the different
products.” MIPPA § 154(d)(3)(A). The 50-percent requirement did not apply to suppliers’ bids in Round 1 of the
Competitive Bidding Program.
15
   MIPPA, P.L. No. 110-275 § 154(d)(3)(B) (adding Social Security Act, § 1847(b)(10)(B), 42 U.S.C.
§ 1395w-3(b)(10)(B)).
16
   MMA, P.L. No. 108-173 § 302(b)(1), as amended by MIPPA, P. L. No. 110-275 § 154. CBAs are defined by
specific ZIP Codes related to Metropolitan Statistical Areas (MSAs). CMS, Competitive Bidding Areas. Accessed
at http://www.dmecompetitivebid.com/Palmetto/Cbic.nsf/files/Fact_Sheet_Competitive_Bidding_Areas.pdf/
$File/Fact_Sheet_Competitive_Bidding_Areas.pdf on November 5, 2013. Selected CBAs in Round 1 were
Charlotte–Gastonia–Concord (North Carolina and South Carolina), Cincinnati–Middletown (Ohio, Kentucky, and
Indiana), Cleveland–Elyria–Mentor (Ohio), Dallas–Fort Worth–Arlington (Texas), Kansas City (Missouri and
Kansas), Miami–Fort Lauderdale–Pompano Beach (Florida), Orlando–Kissimmee (Florida), Pittsburgh
(Pennsylvania), and Riverside–San Bernardino–Ontario (California).

Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 5 – Marilyn Tavenner


these CBAs. Mail order diabetes test strips were included in Round 1 of the Competitive
Bidding Program, but non-mail order test strips were not.17

As a result of Round 1 of the Competitive Bidding Program, the average Medicare payment in
2011 for mail order diabetes test strips provided to beneficiaries in CBAs was $14.62 per
50-count box. In contrast, the national average Medicare payment for mail order diabetes test
strips in non-CBAs (i.e., areas that were not a part of the Competitive Bidding Program) was
$32.47, and the national average payment for non-mail order diabetes test strips was $37.67. See
Appendix A for more information about Round 1 of the Competitive Bidding Program.

Round 2 of the Competitive Bidding Program and the National Mail Order Program. MIPPA
required competition for Round 2 of the Competitive Bidding Program to occur in 2011 in
70 additional CBAs.18 The Patient Protection and Affordable Care Act of 2010 further expanded
the number of CBAs to 100 and required CMS to expand the DMEPOS competitive bidding
program nationwide or to adjust payments to suppliers using competitively bid rates by 2016.19

MIPPA authorized a National Mail Order Program for mail order diabetes testing supplies,
expanding the Competitive Bidding Program from the nine CBAs in Round 1 to all U.S. States
and Territories. Additionally, ATRA established equal Medicare payment amounts for mail
order and non-mail order diabetes test strips provided after implementation of the National Mail
Order Program.20 CMS implemented both the National Mail Order Program and Round 2 of the
Competitive Bidding Program on July 1, 2013.21 Thus, under Round 2 of the Competitive
Bidding Program, both mail order and non-mail order diabetes test strips are reimbursed at the
same competitive bidding payment rate, $10.41 per 50-count box.

Related OIG Work
This report fulfills OIG’s MIPPA requirement for the pending third round of competitive bidding
and is part of a body of work on the Medicare market share of diabetes test strips. CMS
requested two additional reports—one that determines the market share of diabetes test strips for
the 3-month period of April to June 2013, immediately preceding the National Mail Order

17
   During Round 1 of the Competitive Bidding Program, mail order diabetes test strips were defined as items ordered
remotely (that is, by telephone, email, Internet, or mail) and delivered to a beneficiary’s residence by common
carriers (for example, U.S. Postal Service, Federal Express, United Parcel Service). It did not include items obtained
by beneficiaries from local storefronts. After Round 1 of the Competitive Bidding Program, CMS expanded the
definition of mail order to include “any item (for example, diabetes testing supplies) shipped or delivered to the
beneficiary’s home, regardless of the method of delivery.” 75 Fed. Reg. 73170, 73570, and 73623 (Nov. 29, 2010)
(revising the definition of “mail order item” in 42 CFR 414.402 and explaining why the new definition will not
apply to Round 1).
18
   MIPPA, P.L. No. 110-275 § 154(d)(3)(A).
19
   CMS, DMEPOS Competitive Bidding Program. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-
Service-Payment/DMEPOSCompetitiveBid/ on November 18, 2013. MIPPA allows for MSAs that have
populations over 8 million to be subdivided into multiple CBAs. Most Round 2 MSAs contain only one CBA;
however, the three largest MSAs—Chicago, Los Angeles, and New York—are subdivided into multiple CBAs.
20
   ATRA, P.L. No. 112-240 § 636 (adding Social Security Act, § 1834(a)(1)(H), 42 U.S.C. § 1395m(a)(1)(H)).
21
   CMS, Contract Suppliers Selected Under Medicare Competitive Bidding Program. Accessed at
http://www.cms.gov/Newsroom/MediaReleaseDatabase/Press-releases/2013-Press-releases-items/2013-04-092.html
on February 19, 2014. Eighteen contracts were awarded to suppliers to provide diabetes testing supplies through the
National Mail Order Program.

Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 6 – Marilyn Tavenner


Program, and another that determines the market share of diabetes test strips for the 3-month
period of October to December 2013, several months after the National Mail Order Program
began.22 CMS requested these additional reports for informational purposes and to evaluate the
impact of competitive bidding on brand selection.

Additionally, in 2010, OIG published the first report to fulfill its MIPPA requirement to
complete a study determining market shares of diabetes test strips before 2011. OIG found that
171 suppliers submitted claims for at least 75 types of mail order diabetes test strips for the
3-month period of October to December 2009.23 Of these strips, two types accounted for
approximately 26 percent of the Medicare mail order market share, 7 types accounted for
approximately 50 percent of the Medicare mail order market share, and 19 types accounted for
approximately 81 percent.

METHODOLOGY

Data Collection
We identified the population of Medicare claims for mail order diabetes test strips from CMS’s
National Claims History file with a beginning date of service from July through September 2013.
In this file, there were 504,916 claims submitted by 80 suppliers. We then selected a simple
random sample of 1,210 of these 504,916 claims within our date-of-service range. To identify
the beneficiaries associated with each claim in our sample, we matched them with the CMS
Beneficiary Enrollment Database.

We sent a documentation request to 22 suppliers associated with the claims in our sample. For
each claim, we asked the supplier to indicate the type (model and manufacturer) of diabetes test
strips that it provided to the Medicare beneficiary associated with the claim and to submit
relevant documentation (e.g., packing slips, invoices for the strips).24 We received responses
from 22 suppliers associated with 1,190 claims in our sample, a 98-percent response rate.

Data Analysis
We reviewed claims data and supplier documentation and responses to determine the quantity
and type of mail order diabetes test strips associated with each claim in our sample. The
1,190 claims each covered from 1 to 19 boxes of strips, and data for these claims provide
information for a total of 4,656 such boxes.25

We categorized types of diabetes test strips by model and manufacturer. We accounted for the
volume of each type by determining the total number of 50-count boxes of each type of strip and
the percentage across all boxes. We projected our sample data to the population of mail order
diabetes test strips during our time period to estimate the Medicare market shares of mail order
strip types.



22
   OEI-04-13-00681 and OEI-04-13-00682, in progress. 

23
   OIG, Medicare Market Shares of Mail Order Diabetic Testing Strips (OEI-04-10-00130), December 2010. 

24
   We contacted suppliers up to three times to obtain this information.

25
   Most claims (91 percent) were for 1 to 6 boxes.


Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 7 – Marilyn Tavenner


Limitations
Suppliers have 1 year to submit claims to CMS. Types of diabetes test strips associated with
claims during our time period (i.e., with beginning dates of service in the months of July through
September 2013) submitted after November 1, 2013—the date we collected our Medicare
claims—are not included.

Standards
This review was conducted in accordance with the Quality Standards for Inspections approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Suppliers Submitted Claims for at Least 43 Types of Mail Order Diabetes Test Strips for
the 3-Month Period of July to September 2013
Twenty-two suppliers submitted at least 43 types of mail order diabetes test strips for the
3-month period of July to September 2013. Two types of diabetes test strips accounted for
approximately 45 percent of the Medicare mail order market share. Three types of diabetes test
strips accounted for 59 percent of the Medicare mail order market share, and 10 types accounted
for 90 percent.

Table 1 lists the top 10 types of mail order diabetes test strips associated with Medicare claims
for the 3-month period of July to September 2013. See Appendix B for a complete alphabetical
listing of all 43 types. Appendix B also provides the model, manufacturer, percentage of market
share, and 95-percent confidence intervals for market share for each type of diabetes test strip.

Table 1: Top 10 Mail Order Diabetes Test Strip Types Associated With Medicare Claims for the
3-Month Period of July to September 2013
Model                               Manufacturer                                Percentage of
                                                                                Market Share

Prodigy AutoCode                    Prodigy Diabetes Care                                23.9%

OneTouch Ultra Blue                 LifeScan, Inc.                                       20.7%

TRUEtest                            Nipro Diagnostics, Inc.                              14.8%

Embrace                             Omnis Health                                           8.5%

Solus V2                            BioSense Medical Devices                               6.9%

Advocate Redi-Code +                Diabetic Supply of Suncoast, Inc.                      4.6%

Nova Max                            Nova Biomedical                                        4.5%

CONTOUR                             Bayer HealthCare LLC                                   2.2%

ACCU-CHEK Smartview*                Roche Diagnostics                                      2.1%

ACCU-CHEK Aviva Plus                Roche Diagnostics                                      2.1%
   Total                                                                                 90.3%
Source: OIG analysis of supplier documentation and Medicare claims containing HCPCS code A4253 KL for

the 3-month period of July to September 2013. 

*This diabetes test strip may also be listed as the ACCU-CHEK Nano Smartview.





Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 8 – Marilyn Tavenner


CONCLUSION

Twenty-two suppliers submitted at least 43 types of mail order diabetes test strips for the
3-month period of July to September 2013. Two types of diabetes test strips accounted for
approximately 45 percent of the Medicare mail order market share. Three types of diabetes test
strips accounted for 59 percent of the Medicare mail order market share, and 10 types accounted
for 90 percent. CMS may choose to consider these data when determining whether subsequent
rounds of suppliers’ mail order diabetes test strip bids comply with the MIPPA 50-percent
requirement.

This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-04-13-00680 in all correspondence.




Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 9 – Marilyn Tavenner


Appendix A

Round 1 of the Competitive Bidding Program
The MMA required CMS to phase in, with several rounds of bidding, a Competitive Bidding
Program for DMEPOS. Suppliers began submitting bids for Round 1 of the Competitive
Bidding Program on May 15, 2007. Contracts between CMS and suppliers became effective in
selected CBAs on July 1, 2008.26

Two weeks after the Round 1 contracts between CMS and suppliers became effective, Congress
enacted MIPPA, which mandated the following changes to the Competitive Bidding Program:

     	 the termination of contracts awarded to suppliers in Round 1;

     	 the requirement for CMS to repeat the Round 1 competition in 2009; and

     	 the institution of the MIPPA 50-percent requirement for mail order diabetes test strips in
        all rounds following the repeat of the Round 1 competition. (The repeat of the Round 1
        competition is known as the Round 1 Rebid.)27

MIPPA also reduced the 2009 fee-schedule amounts by 9.5 percent for all DMEPOS included in
Round 1 to offset the estimated cost savings lost by the delayed implementation of the
Competitive Bidding Program.28 This reduction resulted in an average 2009 fee-schedule
amount of $32.50 per 50-count box of mail order diabetes test strips.

The Round 1 Rebid began in October 2009 and included the previous selected CBAs, except for
San Juan–Caguas–Guaynabo (Puerto Rico). CMS announced the winning contract suppliers on
November 3, 2010, and the suppliers began providing competitively bid DMEPOS items to
beneficiaries in nine CBAs on January 1, 2011. As a result of the Round 1 Rebid, the average
Medicare payment for 2011 mail order diabetes test strips provided to beneficiaries in CBAs was
$14.62 per 50-count box. In contrast, the national average Medicare payment for mail order
strips in non-CBAs was $32.47, and the national average payment for non-mail order diabetes
test strips was $37.67. CMS also reported that the Competitive Bidding Program saved the
Medicare program nearly $202.1 million in the first year of implementation.29




26
   CMS, DMEPOS Competitive Bidding. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-

Payment/DMEPOSCompetitiveBid/index.html?redirect=/DMEPOSCompetitiveBid/01a_MSAs_and_CBAs.asp on

November 5, 2013. For a list of CBAs in Round 1, see footnote 16. 

27
   The 50-percent requirement did not apply to suppliers’ bids in Round 1 or the Round 1 Rebid.

28
   CMS, MLN Matters Number MM6270. Fee Schedule Update for 2009 for Durable Medical Equipment, 

Prosthetics, Orthotics, and Supplies (DMEPOS). Accessed at http://www.cms.gov/Outreach-and-
Education/Medicare-Learning-Network-MLN/MLNMattersArticles/downloads/MM6270.pdf on November 20, 

2013. 

29
   CMS, Competitive Bidding Update—One Year Implementation Update April 17, 2012. Accessed at

https://www.cms.gov/Medicare/Medicare-Fee-for-Service-Payment/DMEPOSCompetitiveBid/Downloads/
Competitive-Bidding-Update-One-Year-Implementation.pdf on October 7, 2013.

Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 10 – Marilyn Tavenner


Appendix B

Market Share Estimates for 43 Types of Mail Order Diabetes Test Strips, and the
95-Percent Confidence Intervals for Those Estimates

Market Share Estimates for 43 Types of Mail Order Diabetes Test Strips, and the
95-Percent Confidence Intervals for Those Estimates

Model                    Manufacturer                   Percentage            95-Percent
                                                          of Market   Confidence Interval
                                                              Share     for Market Share
ACCU-CHEK Aviva          Roche Diagnostics                   0.71%           0.47–0.95%

ACCU-CHEK Aviva Plus     Roche Diagnostics                   2.10%            1.69–2.52%

ACCU-CHEK Compact        Roche Diagnostics                   0.30%            0.14–0.46%

ACCU-CHEK Compact        Roche Diagnostics                   0.45%            0.26–0.64%
Plus
ACCU-CHEK                Roche Diagnostics                   2.13%            1.71–2.54%
Smartview*
Advocate                 Diabetic Supply of                  0.34%            0.18–0.51%
                         Suncoast, Inc.
Advocate Redi-Code       Diabetic Supply of                  0.17%            0.05–0.29%
                         Suncoast, Inc.
Advocate Redi-Code +     Diabetic Supply of                  4.64%            4.04–5.24%
                         Suncoast, Inc.
BREEZE 2                 Bayer HealthCare LLC                0.37%            0.19–0.54%

CONTOUR                  Bayer HealthCare LLC                2.19%            1.77–2.61%

CONTOUR NEXT             Bayer HealthCare LLC                0.04%            0.00–0.10%

CareSens N               i-Sens, Inc.                        0.47%            0.28–0.67%

Clever Chek              Simple Diagnostics                  0.26%            0.11–0.40%

Clever Choice Pro        Simple Diagnostics                  0.04%            0.00–0.10%

Clever Choice Voice      Simple Diagnostics                  0.26%            0.11–0.40%

EASYMAX V                Oak Tree International              0.30%            0.14–0.46%
                         Holdings
Easy Plus II             Home Aide Diagnostics               0.17%            0.05–0.29%

Easy Step                Home Aide Diagnostics               0.17%            0.05–0.29%

Easy Talk                Home Aide Diagnostics               0.21%            0.08–0.35%

Easy Trak                Home Aide Diagnostics               0.34%            0.18–0.51%

Element                  Infopia USA                         0.69%            0.45–0.92%

Embrace                  Omnis Health                        8.46%            7.66–9.26%

FreeStyle Lite           Abbot Diabetes Care                 0.47%            0.28–0.67%

                                                                 continued on next page




Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
Page 11 – Marilyn Tavenner

Market Share Estimates for 43 Types of Mail Order Diabetes Test Strips, and the
95-Percent Confidence Intervals for Those Estimates (continued)

Model                         Manufacturer                      Percentage               95-Percent
                                                                  of Market      Confidence Interval
                                                                      Share        for Market Share
GE 100                        Bionime USA Corporation                0.21%              0.08–0.35%

GLUCOCARD                     ARKRAY USA                              0.13%                0.03–0.23%
Expression
GLUCOCARD Vital               ARKRAY USA                              0.56%                0.34–0.77%

GlucoNavii                    SD Biosensor, Inc.                      0.15%                0.04–0.26%

Gmate                         Philosys, Inc.                          0.26%                0.11–0.40%

INFINITY                      US Diagnostics                          0.04%                0.00–0.10%

Nova Max                      Nova Biomedical                         4.45%                3.85–5.04%

On Call Plus                  ACON Laboratories, Inc.                 0.13%                0.03–0.23%

On Call Vivid                 ACON Laboratories, Inc.                 0.09%                0.00–0.17%

OneTouch Ultra 2              LifeScan, Inc.                          0.04%                0.00–0.10%

OneTouch Ultra Blue           LifeScan, Inc.                        20.70%              19.54–21.87%

Perfect 3                     Gluco Perfect                           0.17%                0.05–0.29%

Prodigy AutoCode              Prodigy Diabetes Care                 23.88%              22.66–25.11%

GM100                         Bionime USA Corporation                 0.30%                0.14–0.46%

Solo V2                       BioSense Medical Devices                1.33%                1.00–1.66%

SolusV2                       BioSense Medical Devices                6.94%                6.21–7.67%

TRUEbalance                   Nipro Diagnostics, Inc.                 0.09%                0.00–0.17%

TRUEtest                      Nipro Diagnostics, Inc.               14.84%              13.82–15.86%

TRUEtrack                     Nipro Diagnostics, Inc.                 0.26%                0.11–0.40%

Vocal Point                   Specialty Medical Supplies              0.13%                0.02–0.23%


   Total                                                         100.00%**
Source: OIG analysis of supplier documentation and Medicare claims containing HCPCS code A4253 KL for

the 3-month period of July to September 2013. 

*This diabetes test strip may also be listed as the ACCU-CHEK Nano Smartview.

**The percentages in this column do not sum to the total because of rounding. 





Medicare Market Shares of Mail Order Diabetes Test Strips From July–September 2013 (OEI-04-13-00680)
